App. No. _______
In The
Supreme Court of the United States
RENEE BAKER, WARDEN, et al.,
Petitioners,
v.
JEFF N. ROSE,
Respondent.
AMENDED CERTIFICATE OF SERVICE
I, Heidi Parry Stern, a member of the Supreme Court Bar, hereby
certify that a copy of the attached Application For An Extension Of
Time Within Which To File A Petition For A Writ Of Certiorari was
served on counsel of record for Respondent:
Amelia Bizzaro
Assistant Federal Defender
Federal Public Defender’s Office
411 E. Bonneville Ave., Suite 250
Las Vegas, NV 89101
Service was made by hand delivery on February 18, 2020.
/s/ Heidi Parry Stern
HEIDI PARRY STERN
Solicitor General
Office of the Nevada Attorney General
555 E. Washington Ave., Suite 3900
Las Vegas, Nevada 89101
-1-

